                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

Case Number: A13050070                                                          Page 1 of 1


         We received an allegation that a panelist violated NSF's conflicts rules by providing
         a review of a proposal on which he had a conflict of interests. The attached Report
         of Investigation describes our investigation that resulted in NSF prohibiting the
         panelist from serving as a reviewer for 2 years. The closeout documents consist of
         this Memorandum, our report, and NSF's adjudication. This case is closed with no
         further action taken.




NSF OIG Form 2 (11/02)
                             NATIONAL SCIENCE FOUNDATION
                                ~. 4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230




 OFFICE OF THE
   DIRECTOR




CERTIFIED MAIL- RETURN RECEIPT REQUESTED




       Re: Determination of Violation of NSF's Conflict of Interests Rules


Dear Dr..

While serving as an NSF panelist, you submitted an unsolicited, very favorable written
review for a proposal to which you were not assigned. The proposal in question was one
in which the Principal Investigator (PI) and co-PI were your collaborators and co-authors.
You did not disclose this information. As documented in the attached Investigative
Report prepared by NSF's Office oflnspector General ("OIG"), you violated NSF's
conflict of interests (COl) rules for failing to disclose the conflict and attempting to
positively influence a funding decision on which you had a COL

Prior to participation on a panel, NSF panelists read and sign NSF Form 123 OP. Form
1230P explains conflicts of interests with respect to the review process and specifies
panelist responsibilities with regard to potential conflicts:

       Your designation as an NSF panelist requires that you be aware of
       potential conflict situations that may arise. Read the examples of
       potentially biasing affiliations or relationships listed on the second page
       or back of this form. As an NSF panelist, you will be asked to review
       applicant grant proposals. You might have a conflict with one or more.
       Should any conflict arise during your term, you must bring the matter to
       the attention of the NSF program officer who asked you to serve as a
       panelist. This official will determine how the matter should be handled
       and will tell you what further steps, if any, to take.
                                                                                      Page 2


Panelists also receive an in person briefing regarding potential COL

You attended the subject COl briefing which specifically mentioned collabonition and
co-authorship as potential conflicts. You further acknowledged your understanding by
executing NSF Form 1230P. Form 1230P explicitly and prominently mentions
"collaboration on a project or on a book, article, report, or paper within the last 48
months" as an example of a potential conflict. Your co-authorship with the relevant PI
and co-PI occurred but three weeks before your panel service.

I therefore conclude that you violated the NSF COl rules. Accordingly, after assessing
the relevant facts and circumstances of this case, I have determined that you are not
eligible to serve as a reviewer for NSF for the next two years, specifically until March 31,
2016.

If you have any questions about the foregoing, please contact                 Office of the
General Counsel at (703)292-8060.

                                                     Sincerely,     /
                                                                  /.,/        ./




                                                ~%~
                                                     Fae Korsmo
                                                     Senior Advisor to the Director


Enclosures:
Investigative Report
                                    Sensitive



        National Science Foundation
           Office of Inspector General




                 Report of Investigation
                Case Number A13050070    '




                          December 12, 2013

                This Report of Investigation is provided to you
                           FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which
 may result in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a.
 This report may be further disclosed within NSF only to individuals who must
 have knowledge of its contents to facilitate NSF's assessment and resolution of
 this matter. This report may be disclosed outside NSF only under the Freedom of
 Information and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take appropriate
 precautions handling this report of investigation.
NSF OIG Form 22b (1113)
                                                   Sensitive


                                          Executive Summary
      Our office received an allegation of a conflict of interests (COl) violation by a
panelist. The panelist did not disclose his collaboration with the PI and co-PI of a
proposal for which he submitted a review and lobbied to have funded. Accordingly,
we recommend he be prohibited from participating as a peer reviewer, advisor, or
consultant for NSF for 2 years.


                                          OIG's Investigation
          Subsequent to a panel review, we learned a panelist (the Subject 1) submitted

designated reviewer, nor was he asked to provide one; he was the only panelist who
submitted a written review for a proposal to which they were not assigned. He did
not submit reviews for any other proposals not assigned to him. The Subject rated
the proposal 'Excellent' and was a strong advocate of the proposal during the panel
discussion. We learned the Subject was a collaborator and co-author with both the
PI and co-PI of the proposal. 4 Thus, the allegation is the Subject failed to disclose a
cor and, additionally, took steps to positively influence the funding decision
regarding a proposal on which he had a cor.
      We verified the panel was briefed on COis, during which collaboration and
co-authorship were mentioned as potential conflicts. We verified the Subject
attended the briefing and professed his understanding of potential COis as
demonstrated by his signing of NSF Form 1230P.5 Form 1230P specifically lists
"Collaboration on a project or on a book, article, report, or paper with the last 48
months" as a potential COl that should be disclosed to the Program Officer (PO).
The Subject participated on the panel 3 weeks after he co-authored a paper with the
PI and co-PI.
       We wrote to the Subject who acknowledged he "strongly advocated for a
proposal led by people who also appeared as co-authors on a manuscript submitted
less than one month before the proposal review".6 He expressed regret at
overlooking his collaboration and provided several reasons why he failed to disclose
his conflict. He said neither he, the PI, nor the co-PI were the lead author of the
paper; this was his first interaction with the PI and co-PI; the interactions were via
email, not in person; and the interactions were limited. The Subject acknowledged
going out of his way to submit a review of a proposal not assigned to him, but did so




   2
   3                                                                and lists   as the PI,
with
   4                  cover page of a paper they uploaded to the arXiv,
   5   Tab 3
   6   Tab 4, p. 1.


                                                                                        2
                                             Sensitive


because this was the only one that excited him. He acknowledged participating in
the discussion as well.                                          '
                                      OIG's Assessment
       The Subject failed to disclose his collaboration with the PI and co-PI of the
proposal. As noted above, the Subject's collaboration with the PI and co-PI are
clearly mentioned as potential COis in the NSF Form 1230P, 7 which he signed, and
on which he was briefed by a PO before the panel. He took explicit steps to strongly
express his support of the proposal both by strongly advocating for it during the
discussion and by submitting a positive written review, despite the fact that he was
not an assigned reviewer of the proposal. The Subject's COl, together with his
strong lobbying, created an impression with the PO that he had inappropriately
supported the project. The Subject's excuse for doing so is neither convincing nor
exculpatory. He said he did not recognize the PI's and co-PI's names because he
didn't physically meet with them and only wrote the manuscript with them via
email. It is difficult to believe that even if only emails were exchanged, that the
Subject wouldn't recognize the names of his co-authors, especially since the
manu~cript was submitted only weeks prior to his panel service. In addition to the
individual COis, the Subject also has organizational connections to the PI and co-
PI. 8 Given the individual and organizational cormections, we conclude the Subject
purposefully failed to disclose to NSF his COl with the proposal in an attempt to
positively bias the panel and PO.
       While NSF expects panelists to advocate for proposals they believe are
meritorious, NSF also expects panelists to disclose factors that may constitute COis,
so the PO can make informed decisions about the objectiveness of reviewers'
opinions. Deception has no place when POs are deciding how to uphold NSF's gold
standard of peer review and fulfill NSF's mission. In this case, the P0 9 was deceived
through the Subject's actions, which impacted the PO's program. When the PO
realized the Subject's failure to disclose his COis, he had to re-evaluate the reviews,
the panel summary, and his own review analysis to remove the conflicted, positive
bias introduced by the Subject. He consulted with his management and his
divisional conflicts officer to ensure that, ultimately, he was making an unbiased
decision on behalf of NSF.



   7   This potentially disqualifying COl is also codified in the GPG II, Exhibit II-2: Potentially
Disqualifying Conflicts of Interests.
    s The Subject may have been positively biased because his home institution supports both the PI
and co-PI, and both previously worked at his home institution. The Biosketches of the PI and co-PI
indicate both were previously at the Subject's home institution before the Subject went there. The
Current & Pending Support (CPS) of the PI indicted three current grants from the Subject's home
institution, and the CPS of the co-PI also indicated three current grants-the PI and co-PI have one
grant in common, so they have a total of five grants between them from the Subject's home

                      isaPOin-.


                                                                                                  3
                                 Sensitive


                       OIG's Recommendations
Based on the evidence, we recommend NSF:
•   Send the Subject a letter of reprimand notifying him that NSF has made a
    finding that he violated NSF's conflict rules for panelists.
For a period of 2 years as of the date of NSF's finding:
•   Bar the Subject from participating as a peer reviewer, advisor, or
    consultant for NSF.




                                                                          4
